           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       ADMINISTRATIVE COSTS
          CLAIMED BY THE
         MAINE DISABILITY
      DETERMINATION SERVICES

     October 2011   A-01-11-11109




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY

MEMORANDUM

Date:      October 12, 2011                                                      Refer To:

To:        Susan Harding
           Regional Commissioner
            Boston

From:      Inspector General

Subject:   Administrative Costs Claimed by the Maine Disability Determination Services
           (A-01-11-11109)


           For our audit of Federal Fiscal Year (FY) 2008 and 2009 administrative costs claimed
           by the Maine Disability Determination Services (ME-DDS), our objectives were to
           •   evaluate ME-DDS’ internal controls over the accounting and reporting of
               administrative costs;
           •   determine whether costs claimed by the ME-DDS were allowable and funds were
               properly drawn; and
           •   assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Social Security Administration’s (SSA)
           Disability Insurance and Supplemental Security Income programs according to Federal
           law and regulations.1 Each DDS is responsible for determining claimants’ disabilities
           and ensuring adequate evidence is available to support its determinations.

           To make proper disability determinations, SSA authorizes each DDS to purchase
           medical examinations, x rays, and laboratory tests on a consultative basis to
           supplement evidence obtained from the claimants’ physicians or other treating sources.
           SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
           approved funding authorization, based on a State Agency Report of Obligations for SSA
           Disability Programs (Form SSA-4513). (See Appendix B for additional background,
           scope, and methodology.)

           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et. seq., and
           416.1001, et. seq.
Page 2 – Susan Harding


RESULTS OF REVIEW
Except for the items discussed in the following sections, we determined that costs
claimed by the ME-DDS for the period October 1, 2007 through September 30, 2009
were allowable and properly allocated, and the system of internal controls over the
accounting and reporting of administrative costs was effective. In addition, cumulative
draw downs did not exceed cumulative disbursements during our audit period. Finally,
our limited review of ME-DDS’ controls over its physical security and personally
identifiable information showed that controls were in place. (See Appendix C for costs
reported on Forms SSA-4513.)

INDIRECT COSTS – INFORMATION TECHNOLOGY

ME-DDS claimed unallowable information technology (IT) costs of $5,857 for FYs 2008
through 2009. SSA incurred these unallowable costs because Maine’s Department of
Administrative and Financial Services (ME-DAFS) billed ME-DDS for IT staff services it
did not provide. 2

Before our audit, SSA’s regional office expressed concerns about the IT charges from
ME-DAFS. Therefore, we reviewed the Memorandum of Understanding (MoU) between
the State of Maine, ME-DDS, and SSA detailing the terms and conditions by which
ME-DAFS provides IT services to ME-DDS.

We found that ME-DAFS did not provide ME-DDS or SSA detailed IT billings, as
required by the MoU. Despite this, SSA reimbursed ME-DDS for these charges. As a
result, ME-DDS claimed unallowable IT costs in FYs 2008 through 2009, as shown in
Table 1. ME-DDS indicated that it had previously attempted to obtain support for these
charges, yet it was unable to resolve the matter.

                        Table 1: ME-DDS Unallowable IT Costs
                          FY              Unallowable IT Costs Claimed
                         2008                         $5,585
                         2009                           $272
                        TOTAL                         $5,857

ME-DAFS was planning to post an adjusting entry to correct these erroneous charges.




2
 In March 2006, ME-DDS IT staff became part of ME-DAFS, which provides IT services for State
agencies. These services include operating computer network systems and delivering IT services
support.
Page 3 – Susan Harding


EQUIPMENT INVENTORY CONTROLS

ME-DDS did not maintain an inventory of equipment, as required by SSA. 3 According
to SSA instructions, the equipment inventory listing must include the following
      1. Description
      2. Source of funds used to purchase (State or Federal)
      3. Unit cost (State purchases only)
      4. Inventory or serial number
      5. Date purchased
      6. Physical location, including building address and room or floor location

ME-DDS completed an inventory while we were conducting our audit; however, the
inventory records did not contain all the elements required by SSA policy.

SECURITY PLAN COMPLETENESS

ME-DDS’ Security Plan did not contain all the information required by SSA policy. 4
Specifically, ME-DDS’ Security Plan was missing sections for the following.
      1. Physical DDS Security Description/Profile
      2. Systems Security Awareness and Training Plan
      3. Systems Review/Recertification Plan
      4. Violations Reports and Resolution Plan

In addition, ME-DDS did not annually review its Security Plan as required. ME-DDS
informed us that the person primarily responsible for maintaining the Security Plan had
been out of the office for an indefinite amount of time.

CONCLUSION AND RECOMMENDATIONS
Overall, ME-DDS had effective internal controls over the accounting and reporting of
administrative costs for FYs 2008 and 2009. Also, the controls in place for general
security and personally identifiable information at ME-DDS were satisfactory.




3
    SSA, POMS, DI 39530.020 (October 1, 2002).
4
    SSA, POMS, DI 39567.160 (November 8, 2010).
Page 4 – Susan Harding


However, based on the issues with indirect costs, inventory, and the security plan, we
recommend that SSA instruct ME-DDS to:

1. Follow up with ME-DAFS to ensure it processes the $5,857 correction entry for
   erroneous indirect IT charges and returns these funds to SSA.
2. Work with ME-DAFS to implement procedures to provide documentation for indirect
   IT charges on an ongoing basis, as required by the MoU.
3. Maintain an updated equipment inventory in accordance with SSA requirements.
4. Maintain a Security Plan in accordance with SSA requirements.

AGENCY COMMENTS
SSA agreed with the recommendations. (See Appendix D for SSA’s comments.)




                                        Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Reports of Obligations for SSA Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act             Social Security Act
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
FY              Fiscal Year
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
IT              Information Technology
ME-DAFS         Maine Department of Administrative and Financial Services
ME-DDS          Maine Disability Determination Services
MoU             Memorandum of Understanding
OMB             Office of Management and Budget
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code
                                                                                Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico, and the District of Columbia.
Such determinations are required to be performed in accordance with Federal law and
underlying regulation. 1 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. To assist in making proper disability determinations, SSA
authorizes each DDS to purchase medical examinations, x rays, and laboratory tests on
a consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 2 and intergovernmental agreements entered into by the Department of the
Treasury and States under the Cash Management Improvement Act of 1990. 3 An
advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the Fiscal Year (FY), each
DDS submits a State Agency Report of Obligations for SSA Disability Programs
(Form SSA-4513) to account for program disbursements and unliquidated obligations.




1
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601 et. seq. and
416.1001 et. seq.
2
    31 C.F.R. § 205.
3
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (1990).



                                                  B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs Maine Disability
Determination Services (ME-DDS) reported on its Forms SSA-4513 for FYs 2008 and
2009. For the periods reviewed, we obtained evidence to evaluate recorded financial
transactions and determine whether they were allowable under OMB Circular A-87 and
appropriate, as defined by SSA’s Program Operations Manual System.

We also:
•   Reviewed applicable Federal laws, regulations, and pertinent parts of SSA’s
    Program Operations Manual System and other instructions pertaining to
    administrative costs incurred by ME-DDS and draw down of SSA funds.
•   Interviewed staff at ME-DDS and SSA’s Boston Regional Office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
•   Verified the reconciliation of official State accounting records to the administrative
    costs reported by ME-DDS on Forms SSA-4513 for FYs 2008 and 2009.
•   Examined the administrative expenditures (Personnel, Medical, and All Other Non-
    personnel costs) incurred and claimed by ME-DDS for FYs 2008 and 2009 on
    Forms SSA-4513.
•   Examined the indirect costs claimed by ME-DDS for FYs 2008 and 2009 and the
    corresponding Indirect Cost Rate Agreements.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513.
•   Reviewed the State of Maine Single Audit reports issued in 2008 and 2009.
•   Conducted limited general control testing—which encompassed reviewing the
    physical access security within the DDS.
•   Reviewed policies and procedures related to personally identifiable information to
    determine whether the DDS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the ME-DDS in Winthrop, Maine, and the Office of Audit in
Boston, Massachusetts, from January through May 2011. We conducted our audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                                             B-2
METHODOLOGY

Our sampling methodology encompassed the three general areas of costs as reported
on Forms SSA-4513: (1) Personnel, (2) Medical, (3) All Other Non-personnel costs. We
obtained computerized data from ME-DDS for FYs 2008 and 2009 for use in statistical
sampling.

Personnel Costs

We sampled 60 employee salary items from 1 randomly selected pay period in
FY 2009. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the ME-DDS correctly paid
employees and adequately documented these payments.

We also sampled 50 medical consultant costs from FY 2009. We determined whether
sampled costs were reimbursed properly and ensured the selected medical consultants
were licensed.

Medical Costs

We sampled 100 medical evidence and consultative examination records (50 items from
each FY) using a proportional random sample. We determined whether sampled costs
were properly reimbursed.

All Other Non-Personnel Costs

We stratified all other non-personnel costs into eight categories: (1) Occupancy,
(2) Contracted Costs, (3) New Electronic Data Processing Equipment/Upgrades,
(4) Communications, (5) Applicant Travel, (6) DDS Travel, (7) Supplies, and
(8) Miscellaneous. We selected a stratified random sample of 50 items from each FY
based on the percentage of costs in each category (excluding the rent portion of
Occupancy) to total costs. We also performed a 100-percent review of the rent portion
of Occupancy expenditures.




                                         B-3
                                                           Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for SSA Disability Programs
                Maine Disability Determination Services

                FISCAL YEARS (FY) 2008 and 2009 COMBINED
    REPORTING                         UNLIQUIDATED            TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS         OBLIGATIONS
Personnel              $9,345,424           $0             $9,345,424
Medical                $3,978,069           $0             $3,978,069
Indirect               $1,211,131           $0             $1,211,131
All Other              $1,760,336           $0             $1,760,336
TOTAL                 $16,294,960           $0            $16,294,960

                                FY 2008
    REPORTING                         UNLIQUIDATED             TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel              $4,523,726           $0              $4,523,726
Medical                $1,766,986           $0              $1,766,986
Indirect                 $701,764           $0                $701,764
All Other                $853,177           $0                $853,177
TOTAL                  $7,845,653           $0              $7,845,653
                                FY 2009
    REPORTING                         UNLIQUIDATED             TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS          OBLIGATIONS
Personnel              $4,821,698           $0              $4,821,698
Medical                $2,211,083           $0              $2,211,083
Indirect                 $509,367           $0                $509,367
All Other                $907,159           $0                $907,159
TOTAL                  $8,449,307           $0              $8,449,307
                  Appendix D

Agency Comments
                                            SOCIAL SECURITY

MEMORANDUM


Date:       August 5, 2011                                                           Refer To:
                                                                                     S2D1G5/33525/ORC-
                                                                                     2010-S1J-3

To:         Patrick P. O’Carroll, Jr.
            Inspector General

From:       Susan Harding
            Regional Commissioner
            Boston

 Subject:   Administrative Costs Claimed by the Maine Disability Determination Services
            (A-01-11-11109)

            Thank you for the opportunity to review and comment on the draft audit report of administrative
            costs claimed by the Maine Disability Determination Services for fiscal years 2008 and 2009.

            We concur with the facts presented by the report and the findings that:
              • The Maine Department of Administrative and Financial Services (DAFS) charged the
                  DDS with $5857 of unallowable costs for 2008 and 2009.
              • DAFS did not provide the DDS with detailed IT bills as stated in their MOU.
              • The DDS did not maintain a complete inventory of equipment required by SSA policy.
              • The DDS Security Plan did not contain all of the information required by SSA policy.
              • The DDS did not review its Security Plan annually as required.

            We will confirm corrective action upon receipt of the final audit report. Please call me if you
            wish to discuss the report or you staff may contact Lynne Curtis, Maine Disability Program
            Administrator, Boston Center for Disability, at 617-565-2390.
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Chad Burns, Senior Auditor

   Katie Toli, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-01-11-11109.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
